OIG Audit Report GR-30-99-002
Office of Community Oriented Policing Services Grants to the Smithers, West Virginia Police Department
Audit Report GR-30-99-002
March 26, 1999
Office of the Inspector General

Executive Summary
The Office of the Inspector General, Audit Division, has completed an audit of two grants awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented Policing Services (COPS), to the Smithers, West Virginia Police Department (grantee).  The grantee received grants of:  $47,227 to hire or rehire one additional sworn police officer under the Funding Accelerated for Smaller Towns (FAST) program; $185,224 to hire or rehire 6 officers under two Universal Hiring Program (UHP) supplemental awards; and $12,951 to purchase equipment and hire a civilian under the Making Officer Redeployment Effective (MORE) 1998 program.  The purpose of the additional officers, equipment and civilian personnel was to enhance community policing efforts.  The grantee had not drawn down or spent any funds against the MORE 1998 grant award as of the date of our field work.  Therefore, we limited our audit procedures to the FAST/UHP grant awards.

	Our audit determined that:

The grantee had 3 sworn officer vacancies at the time of our review.  These positions had been vacant for approximately 6 months.  The grantee expected to fill these positions by March 1999.

	From inception of the grant to September 30, 1998, the grantee reported costs incurred totaling $156 thousand, while costs incurred from its financial data sheets for the same period totaled $136 thousand.

This item is discussed in the FINDINGS AND RECOMMENDATIONS section of the report.  Our SCOPE AND METHODOLOGY appear in Appendix I.